                                                                            Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Audit Services



                                                                            Region VII
                                                                            601 East 12th Street
                                                                            Room 0429
                                                                            Kansas City, Missouri 64106


January 18, 2012

Report Number: A-07-11-06029

Mr. Lloyd D. McDonald
President
SilverScript Insurance Company, Inc.
9501 East Shea Boulevard, MC125
Scottsdale, AZ 85260

Dear Mr. McDonald:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Controls at SilverScript Insurance Company to
Ensure Adherence to Formularies. We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-07-11-06029 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Lloyd D. McDonald

HHS Action Official:

Mr. Timothy B. Hill
Deputy Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF CONTROLS AT
SILVERSCRIPT INSURANCE COMPANY
     TO ENSURE ADHERENCE
        TO FORMULARIES




                        Daniel R. Levinson
                         Inspector General

                          January 2012
                          A-07-11-06029
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Medicare Part A or enrolled in Medicare Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers Medicare, contracts
with private prescription drug plans and Medicare Advantage plans (collectively known as
sponsors) to offer prescription drug benefits to eligible individuals under Medicare Part D.

Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data, including drug cost and payment information, to CMS.
Sponsors are required to submit final PDE data within 6 months after the end of the coverage
year.

Medicare Part D Formulary Drugs

The MMA requires that a drug meet the definition of a Part D drug to be covered by the Part D
program. Federal regulations define a covered Part D drug as “… a Part D drug that is included
in a Part D plan’s formulary, or treated as being included in a Part D plan’s formulary as a result
of a coverage determination or appeal….” For this report, we refer to a formulary as the entire
list of Part D drugs covered by a Part D plan. CMS guidance provides both interpretive rules and
guidelines for sponsors to implement Federal formulary regulatory requirements.

The Part D program allows sponsors to choose whether or not they will use a formulary to
administer their Part D plans. Sponsors that use a formulary must comply with certain statutory
and regulatory requirements governing formulary operation. In certain circumstances, sponsors
that use a formulary can submit claims for drugs that are provided to beneficiaries but that are
not included in a sponsor’s Part D plan formulary (non-formulary drugs) for Part D coverage. If
these circumstances are not met, the Part D program does not permit reimbursement for these
non-formulary drugs.

SilverScript Insurance Company

SilverScript Insurance Company (SSIC) is a subsidiary of CVS Caremark Corporation. SSIC is
a sponsor and has been approved as such by CMS since the beginning of the Part D program.
SSIC offers Part D drug plans that are available in all 50 States, the District of Columbia, and
Puerto Rico.




                                                 i
OBJECTIVE

Our objective was to determine whether the PDE data claimed by SSIC included non-formulary
drugs.

RESULTS OF REVIEW

SSIC’s claims for PDE data generally complied with Federal requirements regarding non-
formulary drugs. Based on our review of 100 claims, 1 claim for $47 was unallowable because
the prescription was filled outside the allowable transition fill period. Because this is below the
threshold of six errors needed for a statistical projection, we have no findings and are making no
recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Coverage .....................................................1
              Medicare Part D Formulary Drugs ......................................................................1
              SilverScript Insurance Company .........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

RESULTS OF REVIEW ...........................................................................................................3




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. 1 Under the Part D program, which began on January 1, 2006,
individuals entitled to benefits under Medicare Part A or enrolled in Medicare Part B may obtain
drug coverage. The Centers for Medicare & Medicaid Services (CMS), which administers
Medicare, contracts with private prescription drug plans and Medicare Advantage plans
(collectively known as sponsors) to offer prescription drug benefits to eligible individuals under
Medicare Part D.

Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data to CMS. PDE data include drug cost and payment
information to enable CMS to administer the Part D benefit. Pursuant to 42 CFR § 423.343(c)(1),
sponsors must submit final PDE data to CMS within 6 months after the end of the coverage year.

For calendar years (CY) 2007 through 2009, sponsors submitted final PDE data totaling
approximately $196 billion in gross drug costs. CMS’s PDE Instructions: Requirements for
Submitting Prescription Drug Event Data, section 7.2.3, defines gross drug costs as the sum of
the following PDE payment fields: covered plan-paid amount, noncovered plan-paid amount,
patient-pay amount, low-income cost-sharing payment, other true out-of-pocket costs, and patient
liability reduction as a result of another payer amount.

Medicare Part D Formulary Drugs

The MMA requires that a drug meet the definition of a Part D drug to be covered by the Part D
program. Federal regulations at 42 CFR § 423.100 define a covered Part D drug as “… a Part D
drug that is included in a Part D plan’s formulary, or treated as being included in a Part D plan’s
formulary as a result of a coverage determination or appeal….” For this report, we refer to a
formulary as the entire list of Part D drugs covered by a Part D plan. CMS has issued additional
guidance to sponsors in the Medicare Prescription Drug Benefit Manual, Pub. No. 100-18,
chapter 6, section 30. This guidance provides both interpretative rules and guidelines for
sponsors to implement the formulary regulatory requirements specified in 42 CFR § 423.120(b).

The Part D program allows sponsors to choose whether or not they will use a formulary to
administer their Part D plans. Sponsors that use a formulary must comply with certain statutory
and regulatory requirements governing formulary operation. In certain circumstances, sponsors
that use a formulary can submit claims for drugs that are provided to beneficiaries but that are
not included in a sponsor’s Part D plan formulary (non-formulary drugs) for Part D coverage. If


1
    P.L. No. 108-173 § 101, § 1860D-1(a) of the Act, 42 U.S.C. § 1395w-101(a).


                                                         1
these circumstances are not met, the Part D program does not permit reimbursement for these
non-formulary drugs.

SilverScript Insurance Company

SilverScript Insurance Company (SSIC) is a subsidiary of CVS Caremark Corporation. SSIC is
a sponsor and has been approved as such by CMS since the beginning of the Part D program.
SSIC offers Part D drug plans that are available in all 50 States, the District of Columbia, and
Puerto Rico.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the PDE data claimed by SSIC included non-formulary
drugs.

Scope

Our audit covered approximately $104 million in gross drug costs reflected in SSIC’s final PDE
data submitted to CMS for the period January 1, 2007, through December 31, 2009.

We limited our internal control review to SSIC’s policies and procedures related to Part D drugs
that were submitted for reimbursement and that were included in their plan’s formulary or were
treated as being included as a result of a coverage determination or appeal. We did not review
the accuracy or completeness of the PDE data.

We conducted our audit from October 2010 to October 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and program guidance;

   •    interviewed CMS officials responsible for administering the Part D program;

   •    interviewed SSIC officials responsible for administering their Part D plans;

   •    obtained a listing of formulary drugs by National Drug Codes (NDC) for CYs 2007
        through 2009;

   •    obtained a listing of PDE data for NDCs that were not included on SSIC’s formulary for
        any of the respective years under review;

   •    obtained enrollment data from SSIC for CYs 2007 through 2009;


                                                2
       •   identified and removed all PDE data related to:

                o non-covered drugs offered as a supplemental benefit 2 and

                o records associated with possible transition fills; 3

       •   identified 973,823 PDE claims (totaling $60,768,342) associated with NDCs that were
           not included on SSICs formulary listing;

       •   selected a random sample of 100 claims from the 973,823 PDE claims;

       •   obtained and reviewed the supporting documentation for each sampled claim to
           determine the allowability of the claim; and

       •   shared the results of our review with SSIC officials on December 20, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                             RESULTS OF REVIEW

SSIC’s claims for PDE data generally complied with Federal requirements regarding non-
formulary drugs. Based on our review of 100 claims, 1 claim was unallowable because the
prescription was filled outside the allowable transition fill period. 4 Because this is below the
threshold of six errors needed for a statistical projection, we have no findings and are making no
recommendations.




2
 CMS’s PDE Instructions: Requirements for Submitting Prescription Drug Event Data, section 5, “Drug Coverage
Status,” defines a non-covered drug as “any prescription or over-the-counter drug that is not a Part D drug or that is
already covered under Medicare Parts A or B as prescribed, dispensed, or administered.”
3
    A transition fill is a one-time fill allowed by CMS within 90 days of Part D enrollment.
4
 CMS guidance in the Medicare Prescription Drug Benefit Manual, chapter 6, section 30.4.4, requires plans to
“… provide a temporary supply fill anytime during the first 90 days of a beneficiary’s enrollment in a plan.” Our
review identified that the prescription was filled on November 7, 2007, which was more than 90 days after the
beneficiary’s enrollment date of January 1, 2007. Therefore, this claim was considered unallowable. However, we
determined the claim amount of $47 to be immaterial and therefore we will not recommend that SSIC adjust for this
claim.

                                                            3
